                                             NATIONAL SCIENCE FOUNDATION
                                              OFFICE OF INSPECTOR GENERAL
                                                OFFICE OF INVESTIGATIONS

                                        CLOSEOUT MEMORANDUM

Case Number: A07010005                                                                  Page 1 of 1



    We received an allegation of plagiarism by the subject1 in a proposal submitted to N S F . ~
                                                                                                        11
    Our investigation confirmed the plagiarism in the proposal and in an earlier version of the same
    proposal.3 Both proposals were declined for funding.

    Based on our recommendations, NSF made a finding of research misconduct, imposed a one year
    period of certifications and assurances, prohibited the Subject from serving as an advisor,
    reviewer or consultant to NSF for two years, and required the Subject to complete research ethics
    training.4 Our report and the agency's decision memorandum are attached.

    Accordingly, this case is closed.
(9011 I ) qZZlUJoL( 010 dSN
                                       3 ~
         TZSS 'ZSS $$, '3.s.n s ' ~ 1 d~en!rd pue uoneurlojuIjo uropaald ayl lapun 3 1 0 69 +O ~ S N
     aplslno pasopsrp aq dew pue 310 +JSN a q 30 1 4 ~ a d o ay1
                                                             ~ d ST lxodax uo?e2?sa~u1 Te?uaprjLIoC) s m ~
                                        Executive Summarv

       We received an allegation of plagiarism in a proposal submitted to NSF.

OIG's inquiry established that:

       copied text appeared in the subject's proposal submitted to NSF without quotation marks
       and without citation; and
       the apparent source of the copied text was a proposal reviewed in a panel attended by the
       subject.

OIG's investigation established that:

       the subject copied approximately 55 lines of the same text into each of two NSF
       proposals, and the source of the text is a proposal reviewed in an NSF panel on which the
       subject served; and
       the subject's actions are not part of a pattern of plagiarism.

OIG concludes that:

      Act: The subject plagiarized approximately 55 lines of the same text into each of two
      proposals submitted to NSF.
   .: Intent: The subject acted intentionally.
      Significant Departure: The subject's acts were a significant departure from accepted
      practices of the research community.
      Standard of Proof: A preponderance of the evidence supports a finding that the subject
      committed research misconduct.

OIG recommends that NSF:

       Make a finding of research misconduct by the subject;
       Send a letter of reprimand to the subject;
       Require the subject to submit certifications to the Associate Inspector General for
       Investigations (AIGI), NSF OIG for 1 year;
       Require the subject's employer to submit assurances to the AIGI of NSF OIG for 1 year;
       Prohibit the subject from serving as a reviewer of NSF proposals for 2 years; and
       Require the subject to provide certification to the AIGI of NSF OIG that he has
       completed a course in ethics training.
                                                      OIG's Inquiry

        We received an allegation that a proposal (the FY 07 proposal)' submitted to NSF by the
subject2 contained text copied from a previously submitted proposal of another re~earcher.~     Our
inquiry confirmed the apparently copied text, and that the subject served on the NSF panel in
which the apparent source proposal was reviewed. We wrote to the subject to obtain his
perspective of the allegation (Tab 1). The subject responded (Tab 2) to our letter, and stated that
although he did not directly provide a review of the alleged source proposal, he had read it for its
technical ~ o n t e n t .However,
                         ~        the subject claimed that similarity in wording between his
proposal and the alleged source proposal was either coincidental, or a result of the fact that the
words for the concepts described were commonly used in textbooks on the topic. The subject
                                                                                    *
stated that there was no plagiarism in his other proposals submitted to NSF.

       The subject's reply did not dispel the allegation, and we initiated an investigation.
Consistent with NSF's regulation, we referred the investigation to the subject's University,
which accepted the referral and completed its own investigation.

                                   Universitv's Inquiry and Investigation

        The University convened an Investigation Committee (IC) to review the matter. At the
conclusion of its investigation, we received a copy of the IC report and letters that describe
adjudicative action taken by the University, and supporting interview summaries and interview
transcripts (Tab 3).'

        As part of its investigation, the IC wrote to the subject on June 18,2007, and the subject
responded in writing on June 21,2007. The IC interviewed the subject on June 26,2007, and
again on August 2, 2007. The subject's explanations and statements became more specific
during the investigation, culminating in answers given in the highly structured interview of
August 2,2007. The IC examined the subject's FY 07 proposal, the alleged source proposal, the
subject's earlier FY 06 proposal, and evaluated a subset of the subject's other proposals and
publications using a sophisticated linguistics node ,analysis to establish the uniqueness of the
phrasing.

        In his letter to the IC of June 21,2007, the subject revealed that the text in question first
appeared in his FY 06 proposal (declined for funding),6 and that his FY 07 proposal was a
resubmission. The subject stated "It was rather sloppy job in my part as during the proposal
writing process I inadvertently reproduced by exactly typing some of the sentences believing as
they are of mainstream and applicable to unrelated research a~tivities."~The subject claims that


I
    Redacted.
    Redacted.
    Redacted.
4   Subject's response letter, April 3,2007, page 1.
5   The University investigation committee report includes other appendices and supporting documents that are
available for inspection in OIG.
  Redacted.
7
  Subject's document of June 2 1,2007 provided to the IC.
he manually typed the text rather than complete a cut-and-paste from an electronic d o ~ u m e n t . ~
The subject states that his hard copy of the source proposal, obtained during the panel review in
May 2005, was destroyed in summer 2005; the subject's FY 06 proposal was submitted October
7,2005.

        The subject appears to have acknowledged to the IC on June 26,2007, that he transcribed
portions of the source proposal into one of his own proposals, but also claimed that the apparent
duplications in language were because the proposal described standard techniques well-known to
the community, and that the language would be found in textbooks.' The subject stated
"Unfortunately, I used the same language"10 as was in the source proposal. However, the IC
linguistic analysis concluded that the duplicated language was not common to the community,
and on August 2,2007, the subject, while maintaining his claim that the concepts described were
common knowledge, clearly acknowledged that he retyped the text taken from the source
proposal into his FY 06 proposal, and that he then resubmitted the same material in his FY 07
proposal.11 The subject claimed that text describing broader impacts of the proposal and
educational initiatives was duplicated from the source proposal because "I liked the material and
I do the similar thing . . . I might have typed that part so that I could later incorporate into my
proposal."'2

        The IC focused on the subject's actions of duplicating the text from the source proposal,
and the apparent departure of the subject from his usual standards of citation and reference. The
subject stated "What actually happened, as I mentioned the last meeting, when I was preparing
these things, I was very stressed. And since this is - I didn't consider this is unique to their
research, to save time I did that. And also exactly the same thing I knew. So to write my own
way, which I have done many times, it would have taken much longer. So that way to save time
I have done this."13

         Thus, the essential elements established during the IC investigation are:

                  the subject maintained possession of a hard copy of the source proposal, obtained
                  by virtue of his participation on the NSF review panel in May 2005, and
                  using the hard copy as guide, the subject typed text directly from that source
                  proposal into a proposal that he submitted in FY 06, and
                  the FY 06 proposal was not funded, and the subject submitted a slightly revised
                  version of the proposal, still containing the plagiarized text, to NSF in FY 07.14



    Subject's interview August 2, 2007, pages 72-73.
    IC report of subject interview June 26,2007, page 3. The IC's documentation of the June 26 interview suggests
that the IC had not yet fully realized that the FY 07 proposal was a resubmission of the FY 06 proposal, containing
all the text originally copied into the FY 06 proposal. The August 2, 2007, interview with the subject clarified the
situation for the IC.                L
10
    IC report of subject interview June 26,2007, page 3.
II
    Subject interview August 2,2007, pages 50-5 1 .
l 2 Subject interview August 2, 2007, page 42.
l3 Subject interview August 2,2007, page 58.
14 Our inquiry letter to the subject asked about apparent plagiarism in the FY 07 proposal.
        The IC concluded, by a preponderance of the evidence, that the subject committed
plagiarism in duplicating text from the source proposal into his FY 06 and FY 07 NSF
proposals.15 The IC concluded, again by a preponderance of the evidence, that these actions
were a significant departure from the accepted practices of the relevant research community, and
that the actions were intentional.16 The IC concluded that the subject's actions were isolated and
not part of a pattern of behavior.17

        The University adjudication official1' concluded that the subject: 1) violated the NSF
confidentiality agreement for merit review; 2) intentionally plagiarized from the alleged source
proposal into the FY 06 NSF proposal, and then carelessly repeated that plagiarism in a
resubmission of the proposal in FY 07; and 3) therefore committed research misconduct.
Accordingly, the University: 1) established a one-year period in which the University would not
submit proposals to external funding agencies with the subject as PI or coPI; 2) required that the
subject certify to the University that proposals submitted for one subsequent year adhere to
established standards of scholarship; 3) removed the subject from his position as associate chair
of graduate studies in his department, and 4) established a two-year period during which the
subject could not receive any administrative stipendI9 from the University.

                                               OIG's Investigation

       Based on our review of the IC report, we conclude that the IC followed reasonable
procedures, and that its report is accurate and complete. We concur with the committee's and the
University's conclusions that the subject committed an isolated and intentional act of research
misconduct by plagiarizing from the source proposal into his FY 06 and FY 07 proposals.

                                                OIG's Assessment

       A finding of research misconduct by NSF requires that 1) there be a significant departure
from accepted practices of the relevant research community, that 2j the research misconduct be
committed intentionally, or knowingly, or recklessly, and that 3) the allegation be proved by a
preponderance of the evidence."



        The NSF "Grant Proposal Guide" states: NSF expects strict adherence to the rules of
proper scholarship and attribution. The responsibility for proper attribution and citation rests
with authors of a proposal; all parts of the proposal should be prepared with equal care for this
concern." The subject plagiarized approximately 55 lines of text written by others and
presented them as his own words in his FY 06 and FY 07 proposals. We concur with the

IS   IC report August 27,2007, page 1.
16   IC report August 27,2007, page 1.
".   IC report August 27,2007, page 2.
      Redacted.
19
      The subject was apparently receiving support from the department for administrative duties.
     45 C.F.R. §689.2(c).
21
     NSF Grant Proposal Guide, Chapter 1, Section D.3.
University IC that in so doing, the subject departed from accepted standards of the research
community.

        The NSF "Instructions for Reviewers, Obligation for Confidentiality," displayed as part
of the Fastlane procedure to access proposals for review, states: ,

                "NSF receives proposals in confidence andprotects the confidentiality of their
        contents. As a reviewer, you are obligated to maintain the confidentiality of both the
        proposal you are reviewing and also of your review. Please observe the following
        practices to maintain this confidentiality: Do not copy, quote from, or otherwise use or
        disclose to anyone, including your graduate students or postdoctoral or research
        associates, any material from any proposal you are asked to review. Unauthorized
        disclosure of confidential information could subject you to administrative sanctions. If
        you believe a colleague can make a substantial contribution to the review, please obtain
        permission from the NSF Program OfJicer before disclosing either the contents of the
        proposal or the name of any applicant or Principal Investigator. When you have
        completed your review, be certain to destroy the proposal. Safeguard the six-character
        alphanumeric PIN that NSF has assigned to this proposal-reviewer combination. ,,22 ,

        The subject has served on many NSF review panels,23and is familiar with the process
and its obligation for confidentiality. In printing and then retaining a hard copy of the source
proposal, and later selecting and typing text from that source into his own proposal for
submission to NSF, the subject violated his "obligation for confidentiality."

                                                    Intent

        We concur with the IC's and University's conclusion that the subject's actions were
intentional." This level of intent is established by the subject's admitted actions of typing text
from the hard copy of the source proposal into his FY 06 proposal. Subsequent reappearance of
the duplicated text in the FY 07 proposal was characterized by the University adjudicator as
careless.25 However, we do not concur that an intentional act of plagiarism becomes careless on
repetition, and conclude that the repeated act of plagiarism carries the same culpable level of
intent.



                                             Standard o f Proof



22 Found at
https://www.fastlane.nsf.g~~/NSFHelplflashhelplfastlane/FastLaneHelplfastlane l~eIp.htm#proposal review introd
uction.htm. See also Proposal and Award Manual (NSF Manual 10 (December 2007)), par. V.C.2.b.
23 Subject interview August 2,2007, page 64. NSF records show that the subject has provided 63 proposal reviews
since FY 01, providing both panel and mail reviews.
24 University letter to subject August 3 1, 2007.
25 University letter to subject August 3 1, 2007.
        OIG's and the university's direct comparison of each of the subject's FY 06 and FY 07
proposals and the source proposal confirmed the duplication of text. The subject admitted to
copying the text from the source proposal by typing it into his proposal while consulting a hard
copy of the source proposal. An act of plagiarism is thereby established by a preponderance of
the evidence, and therefore we conclude that the subject's acts constitute research misconduct.

                                    OIG's Recommended Disposition

         When deciding what appropriate action to take upon a finding of misconduct, NSF must
consider: 1) how serious the misconduct was; 2) the degree to which the misconduct was
knowing, intentional, or reckless; 3) whether it was an isolated event or part of a pattern;
4) whether it had a significant impact on the research record, research subjects, other researchers,
institutions or the public welfare; and 5) other relevant circumstance^.^^

                                                   Seriousness

        The subject plagiarized text from a proposal available to him as part of his participation
in NSF's confidential review process, and used that text in his own submitted NSF proposal.
The subject admitted that he did so to save time. We concur with the University IC that the
subject's violation of the confidentiality of the merit review process by keeping a copy of the
proposal, and then intentionally copying from it "to save time," is a departure from accepted
standards of the research community.

                                      Degree to which the Act was Intentional

        The subject has considerable experience in preparing NSF proposals, reviewing NSF
proposals, completing hnded research, and publishing research results.27 The subject is familiar
with the standards of scholarship required for preparation of proposals, and the obligations of
confidentiality in reviewing NSF proposals. The IC found, and we concur, that the subject's
actions in this case constitute a departure from his usual and customary practices, but the
subject's admitted action of typing text word-for-word from a proposal authored by others into
his own proposal is clearly intentional.

                                                     Pattern

        The IC examined publications and other proposals submitted by the subject and found no
evidence of additional plagiarism. We concur with the IC conclusion that there is no evidence of
a pattern of unique plagiarism by the subject. We did not consider repeated incidents in which
the subject plagiarized the same words as demonstration of a pattern of unique plagiarism.




                                            Impact on the research record

     45 C.F.R. 9 689.3(b).
'' The PI history and a copy of his biographical sketch submitted with FY07 proposal are attached at Tab 5.
26
       Neither proposal in which plagiarism was found was funded. We therefore conclude that
the impact of the plagiarism on the research record was minimal.

                                Subiect's Response to the Draft Investigation Report

        A draft copy of this report was sent to the subject for comments. In his response letter
(Tab 6), the subject does not rebut the report, and reviews the sanctions placed on him by the
university, which include a ban on submission of external proposals until September 1, 2008, and
certifications until September 1,2009 that proposals submitted adhere to expected standards of
scholarship. The subject was hopeful that any NSF actions would take into account these
sanctions already in place.

                                                   Recommendation

           Based on the evidence in this case, NSF OIG recommends that NSF:

           Make a finding of research misconduct;
           Send a letter of reprimand to the subject;28
           Require the subject to submit certifications to the Associate Inspector General for
           Investigations (AIGI), NSF OIG for 1 year;29
           Require the subject's employer to submit assurances to the AIGI of NSF OIG for 1
           year;30
           Prohibit the subject from serving as a reviewer of NSF proposals for 2 years;3' and
           Require the subject to provide certification to the AIGI of NSF OIG that he has
           completed a course in ethics training.32




                                 -


28
     This is listed as a Group I action, 45 C.F.R. 5 689.3(a)(l)(i).
29
     A certification is similar to Group I actions, 45 C.F.R. 5 689.3(a)(l).
30
     This is listed as a Group I action, 45 C.F.R. 5 689.3(a)(l)(iii).
31
     This is listed as a Group 111 action, 45 C.F.R. 5 689.3(a)(3)(ii).
32   Ethics training is similar to Group I actions, 45 C.F.R. 5 689.3(a)(l).
                                                                     NATIONAL SCIENCE FOUNDATION
                                                                           4201 WILSON BOULEVARD
                                                                          ARLINGTON, VIRGINIA 22230




                                 OF FlCE OF THE
                                DEPUTY DIRECTOR
                                                                                                             JAN O 8 2089


                            CERTIFIED MAIL --RETURN RECEIPT RJ3QUESTED
                            -




                                     Re:        Notice of Research Misconduct Deternlinaiion




                                     I n 2005.   vou submitted a o r o ~ o s a to
                                                                               l the National Science Foundation ('WSF") entitled,




                            Research Mlsconduc& and Proposed Sanctions
                                     Under NSF's regulations, "research misconduct" is defined as "fabl-ication, falsification, o r
                            plagiarism in proposing or perfonning-research funded by NSF . . ." 45 CFR $ 689.1(a). NSF
                            defines "plagiarism" as "the appropriation of another person's ideas, processes, I-esultsor words
                            xvitllout giving appropriate credit." 45 CFR $ 689.1 (a)(3). A finding of research misconduct
--                   A.-~

                            r u ) u1W11at:
                                                                                  --                           ~p



                                                                                                                     -


                                     ( I ) There be a significant departure fi-om accepted practices of the relevant researcl~
                                           community; rmd
-                              ___..
                                           I'

                                     (2) The research miscontluct be committed i n t e ~ i t i o ~ y ~ o T kor~r ~e cl kyl e, s s I ~ / ; ~ ~ -
                                 (3) 'I-hc allegation be pro~lcriby a orc.po~~de~-;~nce        of c~~idence.
                                    _
                          45 C:FR 5 6S9.27?]:
..   -   .................                       . . .       ...    ...-     .................    -. .........
                                                                                                               . . . . . --   . . . .   -....-..-   N
                                                                                                                                                        .. ,



                                        YOLII-    p ~ - o ~ o s acontained
                                                                  ls                                                        that ~vas
                                                                           verbatinl and 11a1-aphrnsecltext rro11)a ~~~.vpc,sal
                                                                                                                                                           II
                                                                                                                                                           i
                                              t e NSF
                            s u l ~ i ~ i ~ (to   d      for fi~nding.By srlbl~rittingpropos;ils to NSF tliai copy tllc ideas or ~vo~.tIs
                                                                                                                                       oi
                                                                                                                                              Page 2
         !       another without adequate attribution, as described in the OIG Investigative Report, you
                 ~nisrepresentedsomeone else's work as your own. Your conduct unquestionably constitutes
                 plagiarism. 1 therefore co~lcludethat your actions n-ieet the definition of "research misconduct"
                 set forth in NSF's regulations.

                        Pursuant to NSF regulations, the Foundation must also deterrn~newhether to make a
                finding of misconduct based on a preponderance of the evidence. 45 CFR 5 689.2(c). After
                reviewing the Investigative Report and the University Conunittee Report, NSI: has determined
                that, based on a preponderance of the evidence, your plagiarism was committed intentionally and
                constituted a significant departure frorn accepted practices of the relevant research community. I
                am, therefore, issuing a finding of research misconduct against you.

                          NSF's regulations establish three categories of actions (Group I, 11, and 111) that can be
                 taken in response to a finding of misconduct. 45 CFR 5 689.3(a). Group I actions include
                 issuing a letter of reprimand; conditioning awards on prior approval of particular activities from
                 NSF; requiring that an institution or individual obtain special prior approval of particular
                 activities from NSF; and requiring that an institutional representative certify as to the accuracy of
                 reports or certifications of compliance with particular requirements. 45 CFR fj 689.3(a)(l).
                 Group I1 actions include award suspension or restrictions on designated activities or.
                 expenditures; requiring special reviews of requests for funding; and requiring correction to the
                 research record. 45 CFR 5 689.3(a)(2). Group I11 actions include suspension or termiriation of
                 awards; prohibitions on participation as NSF reviewers, advisors or consultants; and debarment
                 or suspension from participation in NSF programs. 45 CFR fj 689.3(a)(3).

                         In determining the severity of the sanction to impose for research misconduct, I have
                 considered the seriousness of the misconduct, our determination that it was committed
                 intentionally, as well as our determination that it was an isolated incident. I have also considered
                 the fact that you plagiarized text from a proposal made available to you as part of your
                 participation in NSF's merit review process - a clear violation of the confidentiality mles
                 applicable to this process. I have also considered the fact that your misconduct had no impact on
                 the research record, as well as other relevant circumstances. 45 CFR 5 689.3 (b).

                         The fact that you plagiarized text from a proposal that you were asked to review is
                 particularly troubling to me. In fact, h a d o t debarred you from September 1, 2007 through
                 September 1, 2008 (albeit on a de facto basis), I would have proposed your debarment. AAer
                 assessing the relevant facts and circumstances of this case, I am taking the following actions
                 a n s t you:               '.

                          (1)   Until December 3 1 , 2009, you must provide certifications to the OIG that any
                                proposal you submit to NSF as a PI or co-PI does not contain plagiarized,
                                falsified, or fabricated material;

                          (2)   Until December 3 1,2009 you must submit assurances,from a responsible official
                                of your employer to the OIG that your submissions to NSF do notcontain
.   .......   .........
                                                        --   .      .   -   ............... -- ..........
                                                                                             -
                                                                                                            . _. . -... -- ...............   - ... -.. .- .   -. . . . . . . . . . . . . . .
                                                                                                                                                                                               J
                                                                                                    Page ?
                       plagiarized, falsified, or- fabricated material;

               (3)     You must certify to the OlG that you have conipletecl a research ethics training on
                                                                                                   i
                       plagiarism by June 30,2009; and

               (4)     Until December 31, 2010, you are prohibited from serving as an NSF reviewer,
                       advisor, or consultant.

               All certifications and assurances should be submitted in writing to the Office of Inspector
        General, Associate Inspector General for Investigatioris, 4201 Wilson Boulevard, Arlington,
        Virginia 22230.


    I   Procedures Governing. Appeals
1
                Under NSF7sregulations, you have 30 days after receipt of this letter to submit an appeal
        of this decision, in writing, ti, the Director of the Foundation. 45 CFR 5 689.10(a). Any appeal
        should be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
1
        Arlington, Virginia 22230. If we do not receive your appeal within the 30-day period, this
I       decision will become final.
I
               For your information, we are attaching a copy of the applicable regulations. If you have
        any questions about the foregoing, please call             Assistant General Counsel, at (703)
        292-8060.


                                                                Sincerely,




                                                               Kathie L. Olsen
                                                               Deputy Director




        Enclosures
        - Investigative Report
        - 45 C.F.R. Part 689
